    U.S. Department of the Interior
    Office of Inspector General




               SURVEY REPORT


               USE OF THE
      GOVERNMENTWIDE PURCHASE CARD,
         BUREAU OF INDIAN AFFAIRS

                  REPORT NO. 98-I-283
                    FEBRUARY 1998




3
                                                                           C-IN-BIA-006-96


             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240
                                                                 FEB 27 1998

                                SURVEY REPORT

Memorandum

To ..     Assistant Secretary for Indian Affairs

From:     Robert J. Williams ‘-
          Acting Inspector

Subject: Survey Report on the Use of the Governmentwide Purchase Card, Bureau of Indian
         Affairs ( NO . 98-I-283)

                                 INTRODUCTION
This report presents the results of our survey of the use of the Governmentwide purchase
card at the Bureau of Indian Affairs. The original objective of the audit was to evaluate the
economy and efficiency of the Bureau’s Governmentwide Purchase Card Program and to
determine whether the Program was managed in accordance with applicable laws,
regulations, and guidelines. However, during our survey, the General Accounting Office
issued the report entitled “Acquisition Reform: Purchase Card Use Cuts Procurement Costs,
Improves Efficiency” (No. GAONXAD-960 13 8) on August 6,1996. The report stated: “The
use of purchase cards for small purchases can reduce agencies’ mission support, labor, and
payment processing costs 50 percent by moving simple purchases from procurement offices
to program offices and consolidating payments. In addition, some agencies found that
purchase card use has helped them absorb the impact of administrative staff reductions and
improve service delivery.” Therefore, based on these statements, we revised our objective
to determine whether the Program was managed in accordance with applicable laws,
regulations, and guidelines rather than to evaluate the Program’s efficiency and economy.

BACKGROUND

In 1989, the General Services Administration awarded a contract to Rocky Mountain
BankCard System (Rocky Mountain Bank) to provide purchase card services within the
Federal Government. The purchase card was intended to streamline the small purchase and
payment process and to be used only for official purposes. On June 28, 1990, the
Department of the Interior issued the “Handbook for Utilization of the Governmentwide
Commercial Credit Card,” under Department of the Interior Acquisition Policy Release
(DIAPR) 90-35. According to the Release, the Department’s intent in issuing the Handbook
was to present the general policy in which the bureaus could develop their own card
procedures. In November 1995, the Bureau implemented the Governmentwide Purchase
Card Program and issued its own guidance in its “Bureau of Indian Affairs I.M.P.A.C.
[International Merchant Purchase Authorization Card] User’s Guide.”

Cardholders were selected by Bureau managers and supervisors or approving offkials. Each
authorized cardholder was issued a Delegation of Authority, which identified a maximum
dollar amount for each single purchase and a total dollar amount for all purchases per month
that the cardholder could make. Most single purchases were limited to $2,500 or the
cardholder’s maximum warrant authority for warranted cardholders. To ensure that
cardholders complied with the Federal Acquisition Regulation and Bureau policies and
procedures, each cardholder and approving official certified that they had received training
on how to make small purchases. Training could be obtained through a formal training class,
or the trainee could view a videotape on how to use the card. Each cardholder and approving
official also received a copy of the Bureau Guide. The Guide contained instructions,
requirements, and information on how to cancel a card, the responsibilities of the cardholder
and approving offkial, restrictions on use of the card and restricted or unallowable
purchases, requirements to verify availability of funds, and how to process the monthly
statement. To process the statement each month, the cardholder was required to review it
for accuracy; add the description of each item purchased, along with the document control
number to be charged; and sign and submit the original statement, along with the sales
receipts for all purchases, to the approving official. The approving official reviewed the
information in the statement and attachments and compared this information with that
contained in the Business Account Summary provided by Rocky Mountain Bank to the
approving official of each cardholder before signing the statement and approving it for
payment. The statement was then forwarded to the Branch of Payments, Division of
Accounting Management, in Albuquerque, New Mexico, for payment.

Personnel in the Branch of Payments matched the information in the statement with the
information in the invoice received from Rocky Mountain Bank and recorded the document
control number from the statement in the accounting system before the invoice was paid.
However, the Branch of Payments could process the payment of the invoice without the
required information by using default accounting codes to establish obligations.

Statements that resulted in a credit balance (when the amount of credits totaled more than
the amount of charges) were not recorded in the accounting system. In addition, if the
cardholder noted an erroneous charge on the statement, the charge was paid by the Bureau
and the cardholder was responsible for obtaining a credit for the erroneous charge from
Rocky Mountain Bank. The cardholder was responsible for monitoring the statements to
ensure that the proper credits were received from the vendor and Rocky Mountain Bank.

As of February 1996, the Bureau had 3 16 cardholders. In fiscal year 1995, Bureau
cardholders used the Government purchase card to make purchases totaling approximately
$2.2 million. From October 1, 1995, to February 29, 1996, cardholders made purchases
totaling $1.8 million.


                                             2
SCOPE OF SURVEY

Our survey included small purchases made with the Government purchase card by Bureau
personnel during fiscal years 1995 and 1996 (through February 1996). We reviewed the
overall administration of the Program and Program records to determine whether acquisition
procedures were followed and whether the disbursement records and the purchases made
with the card were appropriate and supported. Our survey fieldwork was conducted at the
Navajo and the Albuquerque Area Of&es, in Gallup and Albuquerque, New Mexico,
respectively; the Central Office West (including the Division of Accounting Management)
and the Office of Trust Funds Management, both in Albuquerque; and the Eastern Navajo
and the Fort Defiance Agencies at Crownpoint, New Mexico, and Fort Defiance, Arizona,
respectively.

Our survey was made in accordance with the “Government Auditing Standards,” issued by
the Comptroller General of the United States. Accordingly, we included such tests of records
and other auditing procedures that were considered necessary under the circumstances. As
part of our survey, we reviewed the Department’s Accountability Report for fiscal year 1996,
which includes information required by the Federal Managers’ Financial Integrity Act, and
determined that none of the reported weaknesses were within the objective and scope of our
audit. We also evaluated the Bureau’s system of internal controls related to purchase card
activities and found that, overall, the Bureau of Indian Affairs provided adequate
management controls of the purchases made with the card. However, we did find some areas
in which improvements were needed. The improvements and recommended corrective
actions are discussed in the Results of Survey section of this report. The recommendations,
if implemented, should improve the internal controls in those areas discussed.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
audit reports during the past 5 years that specifically addressed our survey objective.
However, as discussed previously, the General Accounting Office’s August 6, 1996, report
stated that agency studies revealed that use of the purchase card reduced labor and payment
purchasing costs. Although the Department of the Interior was included in the study, no
findings were directly addressed to the Department.

                           RESULTS OF SURVEY
We concluded that, overall, the Bureau of Indian Affairs Governmentwide Purchase Card
Program was managed in accordance with applicable laws, regulations, and guidelines.
Therefore, we terminated the audit at the end of the survey. However, we noted that funds
were obligated twice for the same purchases (duplicate obligations), credit balances on
monthly statements were not recorded in the accounting records, former employees’ cards
were not canceled, and periodic reviews of the purchases were not performed by appropriate
officials. These conditions occurred because the Bureau’s administrative procedures and



                                             3
controls over the obligation of funds, payments, cancellation of cards, and review of
purchases needed to be improved.

Duplicate Obligations

Management control procedures allowed both Branch of Payments personnel and the
cardholders to obligate funds for the same purchases. This occurred when invoices were
received from the Rocky Mountain Bankcard System on which obligations had not been
established by the cardholder or the charges shown on the invoices could not be matched
with obligations in the accounting system. As a result, personnel in the Branch of Payments
entered default document control numbers into the accounting system and established
obligations based on the information in the invoices. However, duplicate obligations were
created for the same purchases when either the cardholders routinely obligated funds after
the items were purchased or the cardholder and the approving official obligated the funds
upon purchasing the items but did not submit the monthly purchase card statements to the
Branch of Payments within 10 days, as required by Section 3 of the Bureau Guide. We also
noted that Branch of Payments procedures did not provide for the accounting technicians to
contact the cardholders to obtain the statements and to resolve defaulted obligations.
Further, cardholders and approving officials did not monitor their card statements and the
accounting transactions to ensure that the transactions were recorded correctly. At the time
of our survey, we were provided with a 15.page report on defaulted obligations transactions
that were unresolved. The report included approximately 445 transactions, totaling
$594,000, that were attributable to credit card transactions.

Monthly Statements With Credit Balances

The Branch of Payments did not record negative (credit) balances on the monthly statements
in the Bureau’s accounting system. A credit statement results when the amount of credits
attributable to returns and adjustments exceeds the amount of purchases. The accounting
technicians in the Branch of Payments said that these credits were not recorded because they
were not aware, because of a lack of training, that negative amounts could be recorded in the
accounting system. The Federal Financial System User’s Guide provides instructions on how
to use the Federal Financial System and describes how a credit voucher (negative amount)
can be recorded in the Federal Financial System. As a result of the deficiency, the credit
balances on the monthly statements were not recorded in the accounting system, which
resulted in overstated expenses being reported. In addition, Bureau personnel could not
identify the number of unrecorded credit transactions because the purchase card statements
with the credit balances had been commingled and filed with the statements that had been
processed.

Cancellation of Cards
We found, in our test of 14 employees who were no longer with the Bureau or who had
transferred to another Bureau offrce, that the purchase cards had not been canceled for 8 of
these employees. The approving officials responsible for canceling the eight cards stated that

                                              4
they were either uncertain of the procedures for canceling the cards or did not ensure that the
actions taken resulted in the cards being canceled. The Bureau Guide contains instructions
for canceling the purchase cards of employees who leave the Bureau or who are transferred
to another Bureau office. Our test of the purchase card transactions for these eight
employees did not disclose that any of the uncanceled cards had been used.

Annual Review of Purchases

The Bureau’s warranted procurement and approving officials did not conduct periodic
reviews of card purchases, as required by Departmental policy. According to Section XVI
of the Departmental Handbook, warranted procurement officials and approving officials are
to review and evaluate, at least annually, the adequacy and accuracy of the records related
to Government purchase card acquisitions to ensure that the cards are used properly by
Bureau personnel. According to Bureau personnel, the reviews were not performed (despite
the Departmental requirement) because the Bureau had not established its own policies and
procedures to conduct the periodic reviews of the purchase card records in its Guide.

Recommendations

We recommend that the Assistant Secretary for Indian Affairs:

    1. Ensure that cardholders and approving officials submit the purchase card monthly
statements to the Division of Accounting Management within 10 calendar days, as required
by the Bureau Guide.

    2. Require the Branch of Payments to notify the cardholders of all current and future
defaulted accounting transactions and ensure that the cardholders take action to have
duplicate transactions deobligated.

    3. Require that all credit transactions on the purchase card statements which have not
been recorded and all future credit transactions listed on purchase card statements be
identified and recorded in the Federal Financial System.

    4. Ensure that supervisors are properly trained regarding the need to cancel the purchase
cards whenever a cardholder leaves the Bureau or is transferred to another Bureau office.

    5. Require that purchases are reviewed by warranted procurement and approving
officials at least annually, as described in Section XVI of the Departmental Handbook.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the February 16, 1998, response (Appendix 1) to the draft report from the Assistant
Secretary for Indian Affairs, the Bureau concurred with four recommendations and partially
concurred with one recommendation. Although the Bureau only partially concurred with
Recommendation 3, the alternative actions taken were sufficient for us to consider the
recommendation resolved and implemented. Based on the response, we consider
Recommendation 2 resolved but not implemented and Recommendations 1, 3, 4, and 5
resolved and implemented. Accordingly, the unimplemented recommendation will be
referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation.

Since the report’s recommendations are considered resolved, no further response to the
Office of Inspector General is required (see Appendix 2).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our survey.
                                                                                          APPENDTX-T
                      k                                                                   Page 1 of 3


                   United States Department of the Interior



Memorandum                                                                        FEB f 6 1998
To ..           Assistant Inspector General for Audits

From:          Assistant Secretary - Indian AfEairs   ’ ’

Subject:       Draft Survey Report on the Use ofr&ur
                                                 e Gove      chase Card, Bureau of
               Indian AEairs (Assignment No. C- -BIA-006-96)

The subject report concluded that the Bureau of Indian AfYairs provided adequate management
controls of purchases made with Government Purchase Cards (IMPAC) and made five
recommendations to further improve the program.

Recommendation No. 1:

Ensure that cardholders and approving officials submit the purchase card monthly statements to the
Division of Accounting Management within 10 calendar days, as required by the Bureau Guide.

Response: The Bureau concurs. The Bureau has recently modified its procedures to require that
purchase card monthly statements be submitted to the local processing office (generally Area Offices
or the Division of Accounting Management). A memorandum has been sent to all approving officials
and Area Directors reminding them of the 10 day requirement (Attachment 1). IMPAC Coordinators
are to be notified of employees who routinely miss the lo-day deadline, and the employee’s card may
be canceled. We consider this recommendation resolved and implemented.

Recommendation No. 2:

Require the Branch of Payments to notify the cardholders of all current and future defaulted
accounting transactions and ensure that the cardholders take action to have duplicate transactions
deobligated.

Response: The Bureau concurs. The Bureau is developing a computerized interface between the
Federal Financial System (FFS) and the Rocky Mountain Bank Card System. Implementation is
scheduled for April 1998. The interface will use a default account code for each cardholder, and
manual system entries will be made only ifthe cardholders charge to an account other than the default
code. Field offices have reviewed the default account codes and have provided changes to the
Division of Accounting Management. Testing of the interface was completed in December and
modifications are being made to the interface. Duplicate transactions should no longer occur because
data entry clerks will rarely need to make manual entries into the FFS.
                                                                                           APPENDIX 1
                                                                                           Page 2 of 3


The Division of Accounting Management provided training for all Accounting Oficers the last week
of January (Attachment 2) on data entry procedures for transferring charges fi-om the default account
to a different account. They were also instructed on administrative issues such as changing default
account codes for users and notitiing IMPAC Coordinators when a cardholder is repeatedly
delinquent in submitting statements.

                Responsible Official:           Chief, Division of Accounting Management
                Target Completion Date:         April 30,1998

   commendation No. 3 ..

Require that all credit transactions on the purchase card statements which have not been recorded and
zill future credit transactions listed on purchase card statements be identified and recorded in the FFS.

Response: The Bureau partially concurs. Interim procedures have been developed for entering credit
transactions into FFS (Attachment 3) and staff are presently being trained to use these procedures.
When implemented, the new interface will identify and post credits, and manual entry of credit
transactions will rarely be required. Although credit transactions were not recorded when received,
they were realized as subsequent purchases eliminated the credit. There would be very few, if any,
credit transactions on accounts in which there were no subsequent charges. A bill for collection was
sent to Rocky Mountain Bank Card System for identified credits where the cardholder had left the
Bureau. The new procedures will ensure that all fLture credit transactions are properly recorded.
We consider this recommendation resolved and implemented.

Recommendation No. 4:

Ensure that supervisors are properly trained regarding the need to cancel the purchase cards
whenever a cardholder leaves the Bureau or is transferred to another Bureau office.

Response: The Bureau concurs. Approving officials have been notified that they must contact their
IMPAC Coordinator as soon as possible when an employee leaves the Bureau regardless of whether
the card has been collected (Attachment 1). The IMPAC Coordinator is responsible for making sure
the employee’s card is canceled immediately upon notification by the approving official. We consider
this recommendation resolved and implemented.

Recommendation No. 5:

Require that purchases are reviewed by warranted procurement and approving officials at least
annually, as described in Section XVI of the Departmental Handbook.




                                                   8
                                                                                  APPENDIX 1
                                                                                  Page 3 of 3


Response: The Bureau concurs. Some reviews have occurred in the past, but not consistently or
Bureau wide. Attachment 1 reminds responsible officials that reviews must be scheduled at least
annually and documentation of the reviews must be kept on file. We consider this recommendation
resolved and implemented.

Attachments



[NOTE:   ATTACHMENTS NOT INCLUDED BY OFFICE OF INSPECTOR GENERAL]
                                                             APPENDIX 2



           STATUS OF AUDIT REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference                  status                  Action Required

      1,3,4,and5         Implemented.                 No further action is
                                                      required.

           2             Resolved; not implemented.   No further response to the
                                                      Offke of Inspector General
                                                      is required. The
                                                      recommendation will be
                                                      referred to the Assistant
                                                      Secretary for Policy,
                                                      Management and Budget
                                                      for tracking of
                                                      implementation.




                                     10
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENE= BY:


Sending written documents to:                                calling:


                    Within the Continental United States

U.S. Department of the Interior                        Our 24.hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-508 1 or
Mail Stop 5341                                         (202) 208-5300
Washington, D.C. 20240


                                                       TDD for hearing impaired
                                                       (202) 208-2420 or
                                                       l-800-354-0996


                   Outside the Continental United States


                                  Caribbean Region

U.S. Department of the Interior
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                North Pacific Retion

U.S. Department of the Interior                        (700) SO-7428 or
Office of Inspector General                            COMM 9-O 1 l-671-472-7279
North Pacific Regioxi
238 Archbishop F.C. Flares Street
Suite 807, PDN Building
Agana, Guam 96910
                         .



Toll Free Numbers:
 1-800-424-508 1
 TDD l-800-354-0996

FI’S/Commercial Numbers:
  (202) 208-5300
  TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
kM.l stop5341
Washington, D.C. 20240
